                                                                         United States Department of State
                                                                         and the Broadcasting Board of Governors

                                                                         Office ofInspector General

                                                                                JUN 11 2014 





The Honorable Edward Drusina, U.S. Commissioner
International Boundary and Water Commission
United States and Mexico, U.S. Section
4171 North Mesa Street, Suite C-100
El Paso, TX 79902-1441

Dear Commissioner Drusina:

Subject: Report on FY 2013 Risk Assessment ofTravel and Purchase Card Programs at the
         International Boundary and Water Commission (AUD-CG-14-29)
                                                                           1
The Government Charge Card Abuse Prevention Act of 2012 (the Act) requires the Office of
Inspector General (OIG) to conduct periodic assessments of agency purchase and travel card
programs that identify and analyze risks of illegal, improper, or erroneous purchases and
payments for use in determining the scope, frequency, and number of periodic audits of these
programs. The FY 2013 risk assessment was the first such review conducted of the travel and
purchase card programs of the U.S. International Boundary and Water Commission (IBWC).
                                                                                        2
Travel and purchase card program size, internal controls, training, reported violations, previous
OIG audits, and OIG Office ofinvestigations (OIG/INV) forensic audit observations were
considered in assessing the risks.

The risk assessment was not an audit and therefore not conducted in accordance with generally
accepted government auditing standards. The results of the risk assessment should not be
interpreted to conclude that travel and purchase card programs with lower risk are free of illegal,
improper, or eIToneous use or internal control deficiencies. Conversely, a higher-risk program
may not necessarily signify illegal, improper, or erroneous use-only that conditions are
conducive to those activities. Regardless of the risk assessment results, if the travel and purchase
card programs were to be audited, a team may identify such issues through independent testing
of travel and purchase card data. For example, a purchase card program may be found to be
"very low risk" based on documentation and other information provided by agency officials, the
number of cardholders, and the total amount of purchase card expenditures. However, an audit
of that purchase card program may determine that the controls outlined in an agency ' s policy are
not being followed and that illegal, improper, or erroneous activity is occurring. The risk
assessment was designed to identify the programs where the OIG Office of Audits should focus
its limited resources.

1
 Pu b. L. No. 112-194. 

2
 Report ed violations are applicable only to purchase card programs. Violations are required to be reported if th e 

agency spends more than $ 10 million annually. 



                                                UNCLASSIFIED
                                             UNCLASSIFIED


The results of the assessment show that the risk of illegal, improper, or erroneous use in the
IBWC travel card program is “medium” and for the purchase card program is “low.” As a result,
audits of the programs were not recommended for inclusion in the OIG FY 2015 annual audit
plan. 3

                                       Scope and Methodology

OIG’s Office of Audits performed this risk assessment from March to May 2014. The objective
was to assess the risk of illegal, improper, and erroneous use of the purchase and travel card
programs to determine the scope, frequency, and number of audits recommended to be
conducted. The assessment was conducted using industry standard principles for risk
management. 4 The risk assessment was conducted by Melinda M. Perez, Director, Contracts and
Grants Division, and Beverly J.C. O’Neill, Audit Manager, Contracts and Grants Division.

Assessment Criteria

To conduct the risk assessment, OIG reviewed FY 2013 charge card data, documentation, and
information provided from IBWC officials; however, OIG did not independently verify or
validate the data obtained from agency officials. We assessed the travel card program based on
four criteria and the purchase card program on five criteria. The criteria are described in the
paragraphs that follow.

        Internal Controls. Using the criteria identified in the Act and Office of Management
and Budget (OMB) Circular No. A-123, 5 internal controls were assessed for the travel card and
purchase card programs. The travel card program was assessed for 28 general controls and 18
controls specific to travel card programs (46 total controls), and the purchase card program was
assessed for the same 28 general controls and 29 controls specific to purchase card programs (57
total controls). A rating of “lower,” “medium,” or “higher” was assigned based on documented
compliance with required controls.

        Training. The travel card and purchase card programs were assigned a rating of “lower,”
“medium,” or “higher” based on the availability of training and the incorporation of training in
policy for each program.

        Previous OIG Audits. Results of previous audits, as well as the statuses of
implementation of recommendations, were reviewed for each travel card and purchase card
program. A program that had not been audited was assigned a “higher” rating, and the same
rating was assigned for an audit that had been conducted more than 10 years ago. A “lower”

3
  The results of the risk assessment do not preclude OIG from reviewing IBWC’s travel card or purchase card
programs during FY 2015 or at any other time.
4
  “Enterprise Risk Management – Integrated Framework Executive Summary,” Committee of Sponsoring
Organizations of the Treadway Commission, Sept. 2004, and “Risk Assessment in Practice,” Deloitte & Touche
LLP, Oct. 2012.
5
  OMB Circular No. A-123, “Management’s Responsibility for Internal Control,” App. B, “Improving the
Management of Government Charge Card Programs,” Jan. 15, 2009.
                                                  2
                                             UNCLASSIFIED
                                            UNCLASSIFIED


rating was assigned when a program had been recently audited and recommendations had been
implemented. A “medium” rating was assigned for programs that had been audited recently but
for which recommendations had not been fully implemented. The ratings were mitigated if
documentation of meaningful internal reviews (conducted by the agency) was provided.

        OIG/INV Forensic Audit Observation. Ratings of “lower,” “medium,” or “higher”
were assigned for each travel card and purchase card program based on input from OIG/INV
forensic auditors. We met with the OIG/INV forensic audit manager to discuss the progress in
using data mining to review travel card and purchase card transactions for IBWC. The
information provided by OIG/INV may have included results of its analyses and interviews with
the agency officials responsible for the travel and purchase card programs. Details related to
each program are described in the Results of Risk Assessment section of this report.

       Violation Reports. Violation reports were considered only for the purchase card
program, as these reports are required when a purchase card program spends more than
$10 million per year. 6 A rating of “lower” was assigned if a report was provided and a lower
number of violations had been reported. 7

Impact and Likelihood

Impact refers to the extent to which a risk event might affect IBWC, and likelihood represents
the possibility that a given event might occur. We used the dollars spent in each travel card and
purchase card program to determine an impact rating of “lower,” “medium,” or “higher” and the
number of cardholders in each program to determine a likelihood rating of “lower,” “medium,”
or “higher.” The rating criteria are shown in Table 1.

               Table 1. Impact and Likelihood Ratings
                     Rating                   Impact                        Likelihood
                 Lower               Less than $1 million           Fewer than 250 cardholders
                 Medium              $1 million to $10 million      250 to 500 cardholders
                 Higher              More than $10 million          More than 500 cardholders
               Source: OIG developed based on review of multiple sources, including industry standard
               principles for risk management.

The impact and likelihood ratings were compared to determine a single “factor” that was used in
the final overall risk assessment for each travel card and purchase card program. We plotted the
impact and likelihood ratings on a chart known as a “heat map,” which depicts the intersections
of the lower, medium, and higher ratings, to determine a rating for the impact and likelihood
factor. The heat map is shown in Table 2.




6
 OMB M-13-21, “Implementation of the Government Charge Card Abuse Prevention Act of 2012,” Sept. 6, 2013.
7
 IBWC’s purchase card program did not meet the minimum requirements for reporting violations and was therefore
given a rating of “n/a,” as shown in the Results of Risk Assessment section of this report.
                                                 3
                                            UNCLASSIFIED
                                             UNCLASSIFIED


                Table 2. Impact and Likelihood Factor Heat Map
                                                                       Factor
                                    Higher          Medium             High        Very High
                     Impact
                                    Medium            Low            Medium          High
                     Rating
                                    Lower           Very Low           Low          Medium
                                                     Lower           Medium         Higher
                                                                 Likelihood Rating
                Source: OIG developed based on review of industry standard principles for risk management.

Final Risk Assessment

OIG combined the individual criteria ratings to form an overall combined rating and used this
rating with the impact and likelihood factor to determine the final risk assessments for IBWC’s
travel and purchase card programs. Specifically, we used the final assessment heat map shown
in Table 3 to arrive at the overall risk assessment ratings.

                Table 3. Final Assessment Heat Map
                                                                    Final Rating
                                    Very High       Medium             High             Very High
                   Impact and       High            Medium             High             Very High
                   Likelihood       Medium           Low              Medium               High
                     Factor         Low            Very Low             Low              Medium
                                    Very Low       Very Low             Low              Medium
                                                     Low              Medium               High
                                                            Combined Criteria Rating
                 Source: OIG developed based on review of industry standard principles for risk management


                                     Results of Risk Assessment

The results of the assessment show that the risk of illegal, improper, or erroneous use in IBWC’s
travel card program is “medium” and for the purchase card program is “low.” As a result, audits
of the programs were not recommended for inclusion in the OIG FY 2015 annual audit plan. 8
Although audits of the programs are not planned, OIG suggests that both travel card and
purchase card program managers take appropriate actions to ensure and improve oversight of the
programs. The individual program results are described in the sections that follow.

International Boundary and Water Commission Travel Card

        Criteria Ratings. According to documentation and information provided by the IBWC
travel card office, OIG determined that the travel card program’s compliance with required
internal controls was generally “moderate.” IBWC’s documentation did not always demonstrate
complete compliance with the internal control criteria—overall only 30 percent were in
compliance (14 of 46 controls). However, because of the language of the criteria for some of the
8
 The results of the risk assessment do not preclude OIG from reviewing IBWC’s travel card or purchase card
programs during FY 2015 or at any other time.
                                                  4
                                             UNCLASSIFIED
                                          UNCLASSIFIED


controls, IBWC’s internal controls were not necessarily noncompliant. For example, one of the
internal control requirements is to implement split disbursements for travel card programs, but
the criteria language does not state specifically that the requirement must be documented.
However, criteria language for other internal controls states that the internal controls must be
documented in an agency’s policy. This individual internal control was rated “medium” because
IBWC did not have documentation showing that split disbursements were implemented, but
IBWC also did not have evidence showing that the split disbursements had not been
implemented. Overall, 67 percent of the internal controls (31 of 46) were rated “medium,”
which includes the travel card-specific controls that all (18 of 18 controls) were rated “medium.”
As a result, the internal controls criterion was rated “medium.” The availability of training and
the incorporation of training in policy were rated “higher” because IBWC’s travel card policy did
not include training requirements. Instead, cardholders were notified via email of the
requirements. The IBWC travel card program had not been audited by OIG; therefore, the
program was rated “higher” for this criterion. OIG/INV forensic auditors had only recently
requested access to the IBWC travel card data and had not made any observations for
consideration in this assessment. Because of this limited information, a rating of “medium” was
assigned to the program for this criterion. The individual criteria ratings and overall combined
rating are shown in Table 4.

               Table 4. Criteria Summary
                           Criteria                           Rating
                Internal Controls                             Medium
                Training                                      Higher
                Prior OIG Audits                              Higher
                OIG/INV Input                                 Medium
                Combined                                       High
               Source: OIG generated based on analysis of information and documentation
               as described in the “Scope and Methodology” section of this report.


       Impact and Likelihood Factor. The IBWC travel card office reported that in FY 2013,
IBWC spent a total of approximately $310,000 ($40,000 centrally billed accounts (CBA) and
$270,000 individually billed accounts (IBA)), which was attributed to 129 total cardholders
(1 CBA and 128 IBAs). The impact and likelihood factor, shown in Table 5, reduced the risk
associated with the IBWC travel card program.

               Table 5. Impact and Likelihood Factor
                                                                   Rating
                Impact                   $310,000                  Lower
                Likelihood            129 cardholders              Lower
                Factor                              Very Low
                Source: OIG generated based on analysis of information and documentation
                as described in the Scope and Methodology section of this report.

       Final Risk Assessment. The final determination of risk of illegal, improper, or
erroneous use in the IBWC travel card program was “medium.” An audit of IBWC’s travel card

                                               5
                                          UNCLASSIFIED
                                             UNCLASSIFIED


program was not recommended for inclusion in the OIG FY 2015 annual audit plan; 9 however,
OIG suggests that the travel card program manager take appropriate actions to improve oversight
of the program. The OIG FY 2014 risk assessment will carefully consider the progress of
OIG/INV forensic auditors’ data mining efforts.

International Boundary and Water Commission Purchase Card

        Criteria Ratings. According to documentation and information provided by the IBWC
purchase card office, OIG determined that program compliance with required internal controls
was generally “moderate”—overall only 54 percent were in compliance (31 of 57 controls).
Similar to the travel card internal control assessment, 42 percent of the overall controls (24 of
57) were rated “medium.” However, unlike the travel card program, the purchase card-specific
controls were better, with 59 percent in compliance (17 of 29 controls) and 38 percent of the
controls (11 of 29 controls) rated “medium.” As a result, the purchase card program was rated
“lower” for this criterion. The availability of training and the incorporation of training in IBWC
policy were rated “medium” because the purchase card office had not updated its policy since
2001 and the guidance that was provided at that time provided very little information regarding
required training. However, IBWC officials stated that the policy was being updated and was in
the process of being approved. The IBWC purchase card program has not been audited by OIG;
therefore, the program was rated as “higher.” OIG/INV forensic auditors had only recently
requested access to the IBWC travel card data and had not made any observations for
consideration in this assessment. Because of this limited information, a rating of “medium” was
assigned to the program for this criterion. The IBWC purchase card program did not meet the
reporting requirements for violations and was therefore not rated on this criterion. The
individual criteria ratings and overall combined rating are shown in Table 6.

                 Table 6. Criteria Summary
                             Criteria                           Rating
                  Internal Controls                             Lower
                  Training                                      Medium
                  Prior OIG Audits                              Higher
                  OIG/INV Input                                 Medium
                  Violation Report                               n/a
                  Combined                                      Medium
                  Source: OIG generated based on analysis of information and documentation
                  as described in the Scope and Methodology section of this report.

       Impact and Likelihood Factor. The IBWC purchase card office reported that in
FY 2013, IBWC spent approximately $1.6 million, which was attributed to 27 cardholders. The
impact and likelihood factor, shown in Table 7, reduced the risk associated with the IBWC
purchase card program.




9
 The results of the risk assessment do not preclude OIG from reviewing IBWC’s travel card program during
FY 2015 or at any other time.
                                                  6
                                             UNCLASSIFIED
                                            UNCLASSIFIED


                 Table 7. Impact and Likelihood Factor
                                                                    Ra tin
                  Im act                 $1.6 million               Medium
                  Likelihood            27 cardholders              Lower
                  Factor                                  Low
                 Source: OIG generated based on analysis of information and documentation
                 as described in the Scope and Methodology section of this report.

       Final Risk Assessment. The final determination of risk of illegal, improper, or
erroneous use in the IBWC purchase card program was "low." An audit of IBWC 's purchase
card program was not recommended for inclusion in the OIG FY 2015 annual audit plan; 10
however, OIG suggests that the purchase card program manager take appropriate actions to
ensure and improve oversight of the program. The OIG FY 2014 risk assessment will carefully
consider the progress of OIG/INV forensic auditors' data mining efforts.

This report was provided for informational purposes, and a response is not required. OIG
appreciates the cooperation and assistance provided by your staff during this risk assessment. If
you have any questions, please contact me by email at~  [Redacted] (b) (6)
                                                                              or Melinda M.
Perez, Division Director, by email at~-
                                     [Redacted] (b) (6)




Sincerely,

N~~                                                  

Norman P. Brown
Assistant Inspector General
 for Audits

cc: USIBWC - Diana C. Forti




10
 The results of the risk assessment do not preclude OIG from reviewing IBWC' s purchase card program during
FY 2015 or at any other time.
                                                 7
                                            UNCLASSIFIED
